<html>
<title> - CONTROLLING RESTRICTED AIRSPACE: AN EXAMINATION OF THE MANAGEMENT AND COORDINATION OF OUR NATIONAL AIR DEFENSE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
 CONTROLLING RESTRICTED AIRSPACE: AN EXAMINATION OF THE MANAGEMENT AND 
                COORDINATION OF OUR NATIONAL AIR DEFENSE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 21, 2005

                               __________

                           Serial No. 109-50

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
22-809                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 21, 2005....................................     1
Statement of:
    D'Agostino, Davi M., Director, Defense Capabilities and 
      Management, Government Accountability Office, accompanied 
      by Brian Lepore, Assistant Director Defense Capabilities 
      and Management, Government Accountability Office...........    21
    McHale, Paul, Assistant Secretary of Defense for Homeland 
      Defense, Department of Defense; Major General Marvin S. 
      Mayes, Commander, 1st Air Force and Continental U.S. North 
      American Aerospace Defense Command Region, Department of 
      Defense; and Robert A. Sturgell, Deputy Administrator, 
      Federal Aviation Administration............................    76
        McHale, Paul.............................................    76
        Mayes, Major General Marvin S............................    89
        Sturgell, Robert A.......................................    97
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    18
    D'Agostino, Davi M., Director, Defense Capabilities and 
      Management, Government Accountability Office, prepared 
      statement of...............................................    25
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia:
        Prepared statement of....................................     4
        Prepared statement of Mr. Kasprisin......................    68
    Mayes, Major General Marvin S., Commander, 1st Air Force and 
      Continental U.S. North American Aerospace Defense Command 
      Region, Department of Defense, prepared statement of.......    91
    McHale, Paul, Assistant Secretary of Defense for Homeland 
      Defense, Department of Defense, prepared statement of......    79
    Sturgell, Robert A., Deputy Administrator, Federal Aviation 
      Administration, prepared statement of......................    99
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    11


 CONTROLLING RESTRICTED AIRSPACE: AN EXAMINATION OF THE MANAGEMENT AND 
                COORDINATION OF OUR NATIONAL AIR DEFENSE

                              ----------                              


                        THURSDAY, JULY 21, 2005

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room 2154 Rayburn House Office Building, Hon. Christopher Shays 
(acting chairman of the committee) presiding.
    Present: Representatives Davis of Virginia, Shays, Mica, 
Duncan, Miller, Issa, Porter, Foxx, Waxman, Cummings, Kucinich, 
Clay, Watson, Van Hollen, Ruppersberger, Higgins, and Norton.
    Staff present: Melissa Wojciak, staff director; David 
Marin, deputy staff director/communications director; Keith 
Ausbrook, chief counsel; Jennifer Safavian, chief counsel for 
oversight and investigations; Anne Marie Turner, counsel; Rob 
White, press secretary; Drew Crockett, deputy director of 
communications; Grace Washbourne, professional staff member; 
Teresa Austin, chief clerk; Sarah D'Orsie, deputy clerk, Leneal 
Scott, computer systems manager; Andrew Su, minority 
professional staff member; Earley Green, minority chief clerk; 
Jean Gosa, minority assistant clerk.
    Mr. Shays. Good morning and welcome to the Committee on 
Government Reform's hearing on the United States' restricted 
airspace and how the Federal Government coordinates the 
protection of that space.
    While we are all aware that restricted airspace exists 
across the national capital region, restricted airspace is also 
scattered throughout the United States. It includes such 
obvious places as Camp David and Crawford, TX to military 
bases.
    There can be temporary flight restrictions put in place 
during certain sporting events and of course, depending on the 
President's location. It is incumbent on pilots to be aware of 
these areas and they learn of them through the FAA Notices to 
Airmen.
    To give you a sense of what we are talking about, we have 
two maps on display. One map shows all the restricted spaces 
and prohibited areas in the United States, including military 
bases.
    If you look at the coastal areas of the United States, you 
can see there is a contiguous air defense identification zone 
[ADIZ] which encompasses the entire U.S. water border. There is 
also an ADIZ surrounding Alaska and Hawaii. These zones are in 
place for defense purposes and they establish requirements for 
incoming international flights, including providing an 
established flight plan before entering the ADIZ.
    The other map shows the restricted airspace over the 
national capital region. In total, the D.C. prohibited airspace 
is approximately 20,000 square miles. The map shows two rings 
around the region. The inside ring is the flight restricted 
zone [FRZ]. The FRZ is the 15 miles around Ronald Reagan 
National Airport, or DCA. Included within the FRZ is prohibited 
airspace over the White House, the National Mall, the U.S. 
Capitol, the Naval Observatory and Mount Vernon, VA.
    The outside ring is the ADIZ. The D.C. ADIZ is a 30-mile 
radius around DCA which spans out to Dulles, BWI, and the 
Andrews Air Force Base. At the top left of the map you can see 
the bottom of a circle. This is the 3-mile prohibited airspace 
for Camp David in Thurmont, MD, which would be expanded when 
the President is at Camp David.
    These maps of restricted airspace look daunting. It may 
seem even more daunting when we take into account the many 
departments and agencies responsible for watching this 
airspace. That is why we are here today, to better understand 
how these entities are working to manage and coordinate their 
efforts to protect and defend the United States restricted 
airspace.
    One of the best steps taken in this effort was the creation 
of the National Capital Regional Coordination Center [NCRCC]. 
Housed in Herndon, VA, the NCRCC is an interagency group that 
monitors D.C.'s prohibited airspace 24 hours a day, 7 days a 
week.
    The Washington, DC, area is the only area of the country 
with such a center. The Department of Defense, FAA, the Secret 
Service, Customs, and Border Protection and the U.S. Capitol 
Police, along with the TSA, which acts as the executive agency, 
are represented at NCRCC full-time. During major events or 
search operations, the Federal Bureau of Investigations, the 
U.S. Park Police, the Coast Guard and local law enforcement, 
including D.C. Police, are also NCRCC participants.
    Each agency or department at NCRCC is responsible for its 
own mission and jurisdiction as it relates to airspace 
security. However, the participants work together in 
identifying airspace that are violated or may violate 
prohibited airspace. While the response to each possible 
aircraft violation is decided by each government entity 
independently of the others, the information is immediately 
shared by all participants at the NCRCC. That, at least, is our 
understanding of how it works.
    I know the Government Accountability Office [GAO], has some 
concerns about how well the coordination and information 
sharing actually functions. According to NCRCC statistics, 
updated as of July 17, 2005, there has been 3,495 airspace 
incursions in the National Capital Region since January 17, 
2003. These statistics are on the overhead. Airspace incursion 
can include a variety of incidents, including as you see on the 
overheard, FRZ violations, Camp David TFR violations, and 
penetrations of prohibited airspace; 655 out of the 3,495 
incursions resulted in the decision to launch or divert 
Government assets to intercept an aircraft.
    As many of you know, occasionally these airspace violations 
lead the Capitol Police or the Secret Service to evacuate the 
Capitol complex and the White House. While none of us are 
particularly fond of the evacuations, to say the least, I think 
it is important to note that only 3 times out of the 3,495 
incursions has that happened.
    Despite the work of the NCRCC, there are still questions to 
be asked regarding coordination of the U.S. airspace. Today, 
GAO is releasing an unclassified version of their report on the 
interagency management of restricted airspace.
    GAO asks some important questions: How is air defense 
working without a single Government agency taking the lead? How 
do we adequately determine a threat to the prohibited airspace 
when agencies and departments have different definitions of 
what constitutes a threat?
    How will DOD, FAA, and DHS continue to work to improve 
information sharing? I believe these are all valid questions 
that merit discussion and these agencies will have a chance to 
respond to GAO's concerns.
    In the Washington area we have three commercial airports, 
countless general aviation airports. We are pleased to welcome 
general aviation back to Reagan National--all of this aviation 
combined with the flight restriction we see on the maps clearly 
show that protecting America's airspace, particularly around 
the Nation's Capital, is a challenge.
    As the committee responsible for oversight of the Federal 
Government and the District of Columbia, it is our obligation 
to ensure these agencies are working seamlessly together. A 
fast, coordinated response is absolutely vital if we are ever 
again faced with an aircraft with hostile intent.
    Thank you for your patience in listening to the statement. 
This is the chairman's statement.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T2809.001
    
    [GRAPHIC] [TIFF OMITTED] T2809.002
    
    [GRAPHIC] [TIFF OMITTED] T2809.003
    
    [GRAPHIC] [TIFF OMITTED] T2809.004
    
    [GRAPHIC] [TIFF OMITTED] T2809.005
    
    [GRAPHIC] [TIFF OMITTED] T2809.006
    
    Mr. Shays. I now yield to the ranking member, Mr. Waxman, 
for any statement he would like to make.
    Mr. Waxman. Thank you, Mr. Chairman. Thank you to all the 
witnesses who are going to be appearing before the committee.
    Almost 4 years after the horrific attacks on our country of 
September 11, 2001, we are still trying to shore up 
vulnerabilities to our Nation's air defense. I know it is a 
formidable effort. Yet we know that despite our best efforts 
thousands of violations of restricted airspace have occurred, 
some of them dangerously close to high risk targets and large 
populations.
    The way our current system is working, agencies have only 
minutes to react when a plane enters a restricted area. Clear 
coordination, command and control structures and plans are 
essential in responding quickly to a situation.
    Most of these violations, however, are accidental. Pilots 
can better avoid restricted airspaces, but they need updated 
information on no-fly zones and temporary restricted areas.
    In some cases the administration's zeal to keep information 
secret from the public has undermined national security rather 
than enhanced it. This is also true for air security.
    This week the Congressional Quarterly Weekly reported that 
the Federal Aviation Administration placed restricted airspace 
around the Nation's nuclear power plants, but would not tell 
pilots where the power plants were located. The locations, they 
said, were considered sensitive security information.
    How are pilots supposed to stay away from high risk targets 
if they are not told where those targets are? Eventually, FAA 
softened its order and now allows the Pilots Association to 
post maps indicating the general areas pilots are supposed to 
avoid.
    However, new FAA advisory notices remain vague instructing 
pilots to avoid the airspace near all power plants, refineries, 
industrial complexes, military facilities and other similar 
facilities.
    So, Mr. Chairman, not only do we need to reexamine our 
aviation security policies so that there are improvements in 
Federal planning and cooperation, but we can also better 
communicate the growing number of restricted airspaces to the 
public and aviation community.
    By doing so we can focus our attention on those who intend 
to harm us and avoid as many of these false alarms as possible.
    I want to thank the chairman again for calling this 
hearing. I understand it is the first time that any 
congressional committee has examined the progress of Federal 
agencies in controlling restricted airspace since September 
11th. I believe our discussion today will improve our national 
air defense.
    I look forward to the witnesses' testimony. Thank you.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T2809.007
    
    [GRAPHIC] [TIFF OMITTED] T2809.008
    
    [GRAPHIC] [TIFF OMITTED] T2809.009
    
    Mr. Shays. I thank the gentlemen for his statement. At this 
time the Chair will recognize Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman. I don't have 
a formal opening statement. You have covered the topic more 
than adequately. I would just simply say that, you know, we 
have over 700 million passengers flying commercially in this 
country and millions more flying in general aviation. The bulk 
of those are in the eastern half of the United States.
    So, we have a very crowded airspace, especially in this 
region. This is a very difficult problem. I am pleased that you 
are looking into this in the way that you are and I look 
forward to hearing from the witnesses. Thank you very much.
    Mr. Shays. I thank the gentlemen. At this time the Chair 
would recognize Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. Of course, I 
have a special interest in this hearing and regret that because 
of other hearings I won't be able to be here the entire time.
    But because this is the Nation's Capital and because these 
incidents have begun to happen with just a little regularity, 
this is an important hearing for getting to the bottom of it. 
Since we are all amateurs at this, we have never had to deal 
with a situation like September 11th, we need to systematically 
look at what needs to be done, kind of the zero budgeting way. 
If you started from scratch, what would you do?
    I am concerned about the coordination of airspace. The only 
people who seem to know what to do are the people in the jets 
who get up pretty fast, ready to shoot somebody down, the last 
thing we want to have happen, of course.
    I am pleased that somehow, and I don't know if this is an 
accident or not, the planes that have penetrated the space have 
been small planes. I would be very interested to know whether 
or not there is some way, something in our system that we keep 
with planes we really feel, the September 11th planes, from 
doing the same thing or if we have just been lucky.
    Mr. Chairman, I must say that coordination has a purpose 
and the purpose is to save lives on the ground. What strikes me 
as particularly amateur is the evacuations. The evacuations 
have been wholesalely from the Capitol, and from these 
buildings when we have had very small planes.
    Now, you don't have to be a native Washingtonian to know 
that among the most secure buildings in D.C. are the sub-
basements of the Capitol and of some of our office buildings 
because they are old, you know, when buildings really used to 
be very solidly built, and to wonder whether or not the best 
place, if there is a penetration of airspace, is to be out 
there in the open saying is it coming down, or to follow the 
advice that now the security officials are giving everyone in 
the case of an event, if you hear of any event, stay in place 
and listen.
    Of course, we have evacuated because the Capitol Police 
have told us to evacuate. But I must say, it runs against my--
forgive the use of the non-technical word--common sense, to be 
out in the open when we are dealing with what appears to be a 
small plane. Or did we not know it was a small plane and why 
didn't we know it before we said evacuate?
    If we said evacuate, was that the right thing to do 
whenever there is something overhead or only when there are 
certain kinds of things overhead? Again, the coordination in 
the air is for a purpose. It is to preserve lives on the 
ground. I am not convinced that the evacuations of the Capitol 
have been designed to or would have had the effect of 
preserving lives on the ground.
    I am not sure whether the President was evacuated or the 
White House was evacuated to the outside or whether they were 
taken to a basement. But I do think that is all part and parcel 
of coordination.
    Finally, let me say the historic District Building or the 
historic city hall of the District of Columbia is within a 
stone's throw of the White House. When these evacuations 
occurred, they are supposed to occur around that endangered 
area. I would think that they would involve not only the White 
House and the Capitol, but other parts of the city that are in 
close proximity.
    These are some of the questions I would want the panel to 
answer. I thank you very much.
    Chairman Tom Davis [presiding]. Thank you. Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. Thank you also for 
conducting this hearing. First of all, I appreciate, as 
chairman of the House Aviation Subcommittee, Government Reform 
taking a look at this. You do have broad jurisdiction over all 
of the agencies and I think it is important that this type of 
review take place.
    We did, after the so-called Ernie Fletcher flight last 
year, conduct a hearing. We looked at some of the problems that 
had occurred in sort of a disjointed effort in detecting planes 
and then alerting folks and the different agencies that were 
involved.
    I think you outlined here in your briefing paper the 
corrective actions that have been taken by the various 
agencies. I think it is important that we still look at 
problems that we continue to have.
    I know that there are proposals being drafted and we are 
trying to work with folks to look at possibly adjusting some of 
the penalties. The information I have is that in 2003 there 
were 998 violations and in 2004, 600 violations into the 
National Capital airspace.
    Only a very few folks received penalties. We may need to 
look at that. I don't favor exorbitant fines. We were trying, 
before September 11, on the Aviation Subcommittee, to actually 
open up some more of the airspace because we have more 
airplanes in the air and we have limited corridors in which to 
fly.
    Again, I don't favor exorbitant fines. I think we have to 
look at intent and disregard for rules and law. In that case 
I'm in favor of throwing the book at offenders.
    We are going to take up legislation maybe as early as 
September, but in the fall, to consider increasing the fines. 
They are currently, I guess, $1,100 and it is discretionary 
within FAA. That is for an incursion in 30 to 45 miles in the 
ADIZ zone, air defense zone.
    A possible 90-day suspension is the current penalty. That 
may have to in fact be toughened up. The flight restricted zone 
which again comes in a lot closer, 15 miles, there are 
proposals to increase fines. Some of them that we are looking 
at may be as much as $100,000 to 5 years and without any 
discretion of imposing the fine. So, those are some of the 
things that we are looking at that would certainly get people's 
attention.
    Again, there can be unintentional violations of airspace. 
There may be a need in weather and other conditions to get into 
airspace. There are still concerns. We have had actually two 
tests of the system.
    The Fletcher flight was one of the faster ones. It was a 
small jet. It was going around 240 miles an hour. Even at that 
speed, you can reach the Capitol within 20 minutes from outside 
the zone.
    Smaller aircrafts, again we can track. We have some warning 
time. However, we haven't been tested by a large aircraft 
traveling at 500 miles an hour. That will give us a very short 
window of opportunity.
    I know that they are looking at these planes that either 
get off course or are off course even further out than the 50-
mile zone. I think that is something that we have to consider.
    The thing that concerns me is the approach. First of all a 
terrorist is not going to abide by our rules of flying at 
certain levels and speeds. They are going to come in at treetop 
level. We haven't had that experience, except we did have one 
where a small aircraft did hit the White House under the 
Clinton administration, or a tree in front of the White House, 
to be more specific. So, we still have that threat.
    Then we have the threat of a large aircraft coming in at 
500 miles an hour with a very limited warning time. Finally, we 
have a disconnect still. We have FAA, DOD, TSA, DHS and Secret 
Service who have much better coordinated their efforts. I'm not 
sure how you solve this, how different folks go on alert like 
the Capitol and that needs to be addressed.
    The Capitol Police did order the last evacuation, but 
others did not. The District of Columbia, again we have a 
disconnect there in notifying police. Others are at risk, the 
District police and District officials.
    Also, again the most important one is DOD becoming engaged 
to take down an aircraft. We haven't had that experience yet. 
That may be in the future. But we do face a number of 
challenges. I appreciate your letting me mention some that we 
are looking at from our subcommittee standpoint.
    I yield back.
    Chairman Tom Davis. Thank you very much. The gentlemen from 
Maryland.
    Mr. Cummings. Mr. Chairman, thank you very much. In light 
of the fact that we have been going at it a while, I will be 
very brief.
    I am very pleased, Mr. Chairman, that you have scheduled 
this hearing. September 11th illustrated the deadly intent and 
capability of terrorists who seek to destroy us.
    In the post-September 11th world our Nation must be fully 
prepared to protect the homeland by effectively and efficiently 
managing our national air defense. Intelligence reports 
indicate that terrorist elements continue to consider another 
September 11th style attack against U.S. targets where aircraft 
are used as missiles.
    In light of this kind of threat, flight and airspace 
restrictions are essential to help in the Department of 
Homeland Security, the Department of Defense and the Federal 
Aviation Administration who primarily share the charge to 
prevent or rapidly respond to an aircraft that has violated 
restricted airspace. Unfortunately, the 3,400 violations of 
restricted airspace since September 11th clearly demonstrate 
deficiencies in our national air defense.
    More specifically, the violations point to a need to 
standardize Federal agencies roles more clearly and to improve 
communications. For example, on May 11, 2005 a student pilot 
violated a restricted airspace, necessitating a red threat 
level designation and a frightful evacuation of the U.S. 
Capitol. Disturbingly, although the risk and gravity of the 
airspace violation were designated severe according to the 
homeland security advisory system, the President and the Mayor 
of Washington, DC, were not informed of the incident until the 
episode ended.
    In evaluating the management and coordination of our 
national air defense, the GAO reported commendable improvements 
since September 11th, but identified information sharing and 
coordination problems that must be resolved. For example, the 
GAO found that there is no standardized definition of an 
airspace violation among agencies and that the FAA, the North 
American Airspace Defense Command utilize distinct data bases 
to track airspace violations.
    It seems a step in the right direction would be to address 
these challenges with common sense solutions that would improve 
our monitoring capabilities and management of a Federal 
response to an aviation threat. It seems just as sensible that 
Congress seriously consider GAO's recommendation that one 
agency be given the responsibility of responding to restricted 
airspace violations.
    Mr. Chairman, while we need not be an expert to understand 
the disastrous impact another September 11th style attack would 
have on our society and our economy. The American people expect 
more from us than understanding. They expect for us to get it 
right when it comes to securing our national air defense and 
protecting their communities and families from those who seek 
to do us harm.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T2809.010

[GRAPHIC] [TIFF OMITTED] T2809.011

    Chairman Tom Davis. Thank you. Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. I appreciate the gravity 
of the statements made by yourself, by the ranking member and 
other members on this committee.
    I would like to take a slightly different tack in my 
remarks and that is I would like to ask the witnesses to also 
recognize that America has a tradition of being a leader in 
aviation that includes a strong tradition of non-commercial 
pilots, sport, aerobatic, commuter, and the $100 hamburger 
pilots of which I am one. For those of you who aren't private 
pilots, that is a $2 hamburger and $98 worth of fuel and 
maintenance to get to the hamburger stand.
    Complying with Homeland Security's desire to minimize 
aircraft in or around our cities while still allowing the 
freedom that has given us self-trained pilots in every war of 
the previous century is a balancing act. I believe we need to 
modernize communication requirements for aircraft without 
unreasonably restricting the right of Americans to fly 
anywhere, anytime, whether it is for a business meeting or to 
fly friends and family to a hamburger stand on the other side 
of the mountain, just for the joy of seeing this great land 
from the air.
    I would certainly hope that as we are looking at the 
security needs of our Capitol and other areas we would 
recognize that incrementally, as your map shows, we have first 
taken airspace and said that it would be under control. Then we 
made it restricted.
    Today, we are moving toward saying that if you live in a 
city, essentially you are going to have to drive for an hour or 
two to get to your airplane so that you can travel. It doesn't 
make a whole lot of sense. There's no question that the 
technology exists today to provide better alerts of restricted 
airspace even to the training pilot.
    My background in technology shows me that although they are 
not presently on board our aircraft, there is no question that 
you can have an alert beacon similar to our collision avoidance 
that would come on when you enter restricted airspace, 
requiring no radio contact and so on.
    Now, I recognize that many sport pilots choose to have the 
minimum aviation assets on board and they may not do that. But 
for those who fly modern aircraft and would like to comply with 
the rules, but at the same time, have a difficult time.
    Camp Pendleton and San Onofre Nuclear Power Plant are both 
in my district. Ten years ago, if there were no operations at 
Camp Pendleton, overflights were routinely granted. Today that 
is never granted.
    As a result, every small aircraft must either fly 
significantly inland along high meetings or fly over the ocean. 
There is a very narrow band for any pilot flying at low 
altitude between being outside of San Onofre and Camp 
Pendleton's restricted space and being too far away from land 
to safely land if they were to have an engine failure.
    So, on behalf of the vast majority of flights taken, and 
the vast majority are taken by single engine fixed aircraft, I 
would hope that now and in the Q and A session that we can look 
at how to balance that while maintaining the safety in and 
around our major cities.
    With that, I yield back.
    Chairman Tom Davis. Thank you. Are there any other members 
who wish to make opening statements?
    Mr. Ruppersberger. Mr. Chairman, not an opening statement. 
I have one, but this is an extremely relevant issue. One of the 
main reasons with respect to our air in the Capitol region is 
unfortunately the Capitol is a target for terrorists.
    It seems to me that the teamwork approach, whether it is 
NORAD which is in charge of controlling the security of the 
airspace, whether it is TSA or FAA, all these organizations 
coming together, we need to focus on what needs to be done to 
protect.
    Now, we have had incidents in the past where we have had 
violations, where we have had over 10,000 people running into 
the streets. I think it is very important when we analyze and 
come up with a plan that we look at what we have done when in 
fact there was a possible attack. Did we pull the trigger too 
quickly? Do we need 24/7 jets in the sky, at least during these 
difficult periods?
    I mean these are issues that I would hope we can address in 
this hearing. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Do any other 
Members wish to make opening statements?
    If not, we will move to our first panel. Thank you for 
being with us. We have Ms. Davi D'Agostino, Director of Defense 
Capabilities and Management at the U.S. Government 
Accountability Office accompanied by Mr. Brian Lepore who is 
the Assistant Director.
    Thank you both for being with us. I want to thank both of 
you for taking the time, working so hard to declassify your 
report so that we could have this hearing today.
    I also want to point out that because the classified report 
will not be released until September 2005, our second panel of 
witnesses have graciously allowed GAO to testify first so we 
understand the limits of what we can talk about today.
    I am going to remind the Members that if the witnesses 
can't fully answer some of your questions because they might be 
classified, the committee will take all questions for the 
record.
    It is our policy that we swear in all people before they 
testify.
    [Witnesses sworn.]
    Chairman Tom Davis. You may be seated. Ms. D'Agostino, take 
whatever time you need and then we'll open it up for questions.

STATEMENT OF DAVI M. D'AGOSTINO, DIRECTOR, DEFENSE CAPABILITIES 
 AND MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE, ACCOMPANIED 
 BY BRIAN LEPORE, ASSISTANT DIRECTOR DEFENSE CAPABILITIES AND 
          MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. D'Agostino. Thank you very much. Good morning, Mr. 
Chairman and members of the committee. We are pleased to be 
here today before you to discuss the results of GAO's work on 
the interagency response to violations of U.S. restricted 
airspace.
    While much progress clearly has been made since September 
11, 2001, we believe there are still opportunities to enhance 
our Nation's airspace security.
    My remarks today are from the unclassified portions, as you 
mentioned, of our classified report, which we will be issuing 
shortly.
    As you know, intelligence agencies believe that terrorists 
remain highly interested in U.S. aviation, both commercial and 
general aviation, to attack airports or to use aircraft to 
attack targets, including critical infrastructure.
    As you noted in your opening remarks, since September 11th 
several Federal agencies such as the Federal Aviation 
Administration [FAA], the North American Aerospace Defense 
Command or NORAD, and the Transportation Security 
Administration [TSA] have made noteworthy advances to protect 
our Nation's airspace.
    I believe the next panel will elaborate further on their 
progress.
    I would also add that we were impressed that the FAA and 
NORAD took actions to correct certain problems we identified 
during the course of our review.
    Today I will focus on first, how restricted airspace is 
protected; second, key gaps we identified in the interagency 
process to respond to violations; and third, the agency's 
comments on selected recommendations on our draft report and 
our response.
    Let us start with how restricted airspace is protected. FAA 
reported that between September 12, 2001 and December 31, 2004 
there were about 3,400 restricted airspace violations, most of 
which, about 88 percent of which were committed by general 
aviation pilots.
    Our diagram, if you will look at our diagram, and we 
provided copies to the Members, shows the concept of restricted 
airspace where the larger circle is restricted airspace and the 
center is the protected asset or potential target. If a 
violation is imminent or underway responding agencies have very 
limited time to decide what actions to take. However, they need 
enough time to determine the pilot's intent. In addition, NORAD 
and Homeland Security need time to order, scramble and launch 
aircraft, if necessary, to intercept the violator.
    Our diagram shows an aircraft deviating from its originally 
planned flight path. As you can see, in one example the 
aircraft is making an incursion that in the end is non-
threatening. They go in and out of the restricted area. In the 
other example the aircraft is making a threatening incursion by 
heading directly at the protected asset.
    Agencies take specific actions depending on the nature of 
the violation. For example, FAA can report a restricted 
airspace violation based on its radar tracking. If the 
offending aircraft deviated from its planned flight path but 
was not heading directly toward the protected asset, they may 
simply monitor the aircraft and try to contact the pilot.
    On the other hand, if NORAD or FAA perceives the aircraft 
to be a threat, NORAD or Homeland Security can alert their 
aircraft and attempt to interdict the violator. At the same 
time, FAA would continue to try to contact the pilot and 
monitor to assure safety of the airspace. If the violating 
pilot does not divert and continues to operate in a threatening 
manner, the NORAD pilot can be ordered to engage the violating 
aircraft.
    Clearly, the process for responding to a violation can 
include many agencies. There are seven principal agencies, each 
simultaneously responding according to their own procedures.
    The agencies have made great strides to enhance air 
security, including setting up, as you mentioned, an 
interagency coordination center known as the National Capital 
Region Coordinating Center [NCRCC] and an interagency 
teleconferencing system for real time communication, 
coordination and sharing of information for responding to 
violations known as the Domestic Events Network [DEN].
    While these interagency tools are functioning, we 
identified some gaps that need to be addressed. Before we turn 
to some of the gaps we identified, we need to recognize up 
front that it is not possible to prevent all protected airspace 
violations.
    Airspace security measures could be challenged purposely. 
In addition, some pilots simply do not check to see if they 
will be flying in or near restricted airspace. Such challenges 
highlight the need for clear policies and procedures and 
optimal interagency coordination.
    Our review identified these key gaps in the interagency 
process: First, there is no leadership over and no organization 
in charge of the end-to-end interagency process of responding 
to violations. We noted also the lack of an over-arching 
concept of operations plan or other relevant document to guide 
the interagency process of responding to violation in all U.S. 
airspace.
    Third, the lack of key interagency policies and procedures 
for either the NCRCC or the DEN. Fourth, no formal agency 
information-sharing protocols and procedures. For example, 
sharing segments of data on violations and aggregated 
information on FAA's enforcement actions would be beneficial. 
Fifth, the lack of common definitions for use in this time-
critical interagency operation.
    Now I will discuss the agency's comments on selected 
recommendations we made in our classified draft report. 
Homeland Security and Defense disagreed with our draft report 
recommendation to appoint one agency to be in charge, largely 
because of concerns about command and control over their 
resources. Nevertheless, the aim of our recommendations is to 
ensure that someone is available and accountable to resolve the 
interagency issues and problems in a timely and effective 
manner.
    Next, Transportation, Defense and Homeland Security agreed 
with the general recommendation to establish information-
sharing protocols. DOD disagreed with a specific recommendation 
to discuss with FAA sharing segments, not all, of FAA's pilot 
deviation data base with NORAD.
    DOD cited concerns over the appearance that it would be 
collecting information on U.S. citizens. We appreciate DOD's 
concerns and certainly did not recommend information sharing 
that would run afoul of existing laws and policies.
    We believe segments of FAA's data base could be shared 
within the law and that DOD and FAA should explore that 
possibility. Our work showed that this is particularly 
important in light of the fact that NORAD's air defense 
mission, which includes tracking aircraft in U.S. airspace, 
could benefit from segments of the information as additional 
input into deciding how to allocate their limited resources 
around the country.
    In conclusion, while much progress has been made, we have 
found that the interagency effort to secure U.S. airspace could 
be enhanced by proactive leadership with accountability, an 
over-arching strategy and plan, clear interagency policies and 
procedures, formal agency information sharing protocols, and 
common definitions.
    Today, nearly 4 years after the September 11th attacks, we 
believe it is time to treat airspace security as a national 
program with an eye toward balancing commercial and security 
needs and applying risk management principles.
    Mr. Chairman, this concludes my oral summary. At this time 
we would be happy to address any questions.
    [The prepared statement of Ms. D'Agostino follows:]

    [GRAPHIC] [TIFF OMITTED] T2809.045
    
    [GRAPHIC] [TIFF OMITTED] T2809.046
    
    [GRAPHIC] [TIFF OMITTED] T2809.047
    
    [GRAPHIC] [TIFF OMITTED] T2809.048
    
    [GRAPHIC] [TIFF OMITTED] T2809.049
    
    [GRAPHIC] [TIFF OMITTED] T2809.050
    
    [GRAPHIC] [TIFF OMITTED] T2809.051
    
    [GRAPHIC] [TIFF OMITTED] T2809.052
    
    [GRAPHIC] [TIFF OMITTED] T2809.053
    
    [GRAPHIC] [TIFF OMITTED] T2809.054
    
    [GRAPHIC] [TIFF OMITTED] T2809.055
    
    [GRAPHIC] [TIFF OMITTED] T2809.056
    
    [GRAPHIC] [TIFF OMITTED] T2809.057
    
    [GRAPHIC] [TIFF OMITTED] T2809.058
    
    [GRAPHIC] [TIFF OMITTED] T2809.059
    
    [GRAPHIC] [TIFF OMITTED] T2809.060
    
    [GRAPHIC] [TIFF OMITTED] T2809.061
    
    [GRAPHIC] [TIFF OMITTED] T2809.062
    
    [GRAPHIC] [TIFF OMITTED] T2809.063
    
    [GRAPHIC] [TIFF OMITTED] T2809.064
    
    [GRAPHIC] [TIFF OMITTED] T2809.065
    
    [GRAPHIC] [TIFF OMITTED] T2809.066
    
    [GRAPHIC] [TIFF OMITTED] T2809.067
    
    [GRAPHIC] [TIFF OMITTED] T2809.068
    
    [GRAPHIC] [TIFF OMITTED] T2809.069
    
    [GRAPHIC] [TIFF OMITTED] T2809.070
    
    [GRAPHIC] [TIFF OMITTED] T2809.071
    
    [GRAPHIC] [TIFF OMITTED] T2809.072
    
    [GRAPHIC] [TIFF OMITTED] T2809.073
    
    [GRAPHIC] [TIFF OMITTED] T2809.074
    
    [GRAPHIC] [TIFF OMITTED] T2809.075
    
    [GRAPHIC] [TIFF OMITTED] T2809.076
    
    [GRAPHIC] [TIFF OMITTED] T2809.077
    
    [GRAPHIC] [TIFF OMITTED] T2809.078
    
    [GRAPHIC] [TIFF OMITTED] T2809.079
    
    [GRAPHIC] [TIFF OMITTED] T2809.080
    
    Chairman Tom Davis. Thank you very much. Let me start. Most 
of us have read in the newspapers different accounts of the 
interagency process that was used in recent incursions of the 
National Capital Region. As GAO conducted this study, did you 
look at any of these incidents and can you comment on what you 
saw?
    Ms. D'Agostino. Mr. Chairman, our work did not focus on a 
specific incident. We did look into the Kentucky Governor 
incident. But actually we had completed our review by the time 
the May 11 incident had occurred and we had begun writing our 
report. So, we did not dig deeper into those specific cases.
    Chairman Tom Davis. Does TSA need to do more to identify 
security vulnerabilities on general aviation aircraft?
    Ms. D'Agostino. I think our statement points out areas 
where TSA could do more. There are 19,000 general aviation 
airports. It is a rather huge population. They are trying to do 
a risk-based approach to their effort and they have developed a 
risk-assessment tool and they have deployed some to general 
aviation airports, so I think they deserve some credit for 
that. There may be more that they could do.
    Chairman Tom Davis. What responsibilities do you think the 
TSA should have as the executive agent for the National Capital 
Region's Coordination Center and do you think the TSA if 
fulfilling its responsibilities? Can you give them a grade?
    Ms. D'Agostino. Well, I think as the executive agent TSA 
describes its own role as one of deconflicting. It is not 
seeing itself as in charge and it is not clear that they see 
themselves in a leadership role or in a proactive leadership 
role.
    One of the questions we have is if there were to be an air 
security strategy or plan put together, who would do the first 
draft, Mr. Chairman. We would wonder who would do the first 
draft and then broker the coordination of that draft with a 
timetable.
    That's where we would like to understand whose leadership--
--
    Chairman Tom Davis. So, what do you think the National 
Capital Regional Coordination Center needs? What improvements 
do they need?
    Ms. D'Agostino. I think we pointed out some communication 
problems. They need a concept of operations plan. Although they 
have one, it does not go into the kinds of specificity much 
beyond roles and responsibilities of the individual agencies. 
So, we think that could be pushed a little further.
    Chairman Tom Davis. You did identify gaps in the management 
of the interagency response to airspace violations. What is 
lacking in the management of the Federal responses? What is 
lacking? Is it somebody in charge at the end?
    Ms. D'Agostino. Right, somebody in charge, an over-arching 
strategy and plan, information sharing protocols as among the 
agencies, some clear concepts of operations, how things will be 
communicated. Our team actually observed the DEN and they 
observed there's a lot of shouting. When there are multiple 
incidents it gets very confusing. You can't tell who is 
talking.
    Chairman Tom Davis. You ought to see it from this angle. I 
was meeting with six presidents of nations in Central America. 
We had a meeting and it just got started. They came in and just 
literally carried them out, put them in cars and left.
    This building was emptied, office buildings around here, 
not just the legislative branch and Library of Congress, but 
others. I mean thousands of hours of productivity lost. Of 
course, at the end of the day it was just somebody who got lost 
flying over the area.
    But you can tell from some of the Members' opening 
statements, there has to be a better way to do this. There have 
to be penalties for the violations. I don't know if that starts 
with education or as people are leaving, to understand it. But 
it is getting very, very disruptive in terms of both the 
private sector and the Government sector.
    Ms. Watson.
    Ms. Watson. Thank you so much, Mr. Chairman. I welcome the 
panelists.
    I was listening very intently, Ms. D'Agostino, to your 
testimony and your recommendations. Do you believe that we 
ought to create--would that be one of your recommendations--
that we create a new agency to coordinate all of this? Because 
it doesn't appear that we are talking to each other, the 
various agencies involved, and that we are coordinating.
    I understand with one incident there were two different 
agencies that were trying to intercept. Do you think there's a 
need for a new agency or department?
    Ms. D'Agostino. We do not think there's a need for a new 
agency or department. There are enough agencies and departments 
now participating in this response. What we do think is that 
one agency needs to agree to step up to lead the response and 
be the leader and coordinate the response and smooth out the 
rough edges.
    They are coordinating fairly effectively. Again, it is very 
striking how far they have come from September 11th in the 
coordination process. The problem is there are seams there 
still between and among the agencies and nobody has the job of 
ironing out those seams and working out those differences and 
rough edges, as I'm calling it.
    Ms. Watson. Who should do that? Who should make that 
decision that we need to destroy those seams and have more 
merging and flowing? Who should do that?
    Ms. D'Agostino. I actually think all the agencies believe 
that they need to work on the seams, but they need to agree on 
who should lead that effort. The NCRCC, the executive agency is 
TSA. Both DOD and DHS, in their comments on our classified 
draft report mentioned a working group, which TSA is also the 
lead in.
    There have been other working groups that DOD has 
participated in trying to work on some of these problems and 
get a strategy, get a plan. But their plans, and I know there 
have been draft plans, have not made it to the final stage.
    Ms. Watson. Well, you mentioned that TSA doesn't realize 
they have this responsibility or authority. I am trying to 
gleam from your testimony and your report where do we start 
this? Who is in charge of it? What language is where that 
clearly can direct these activities and take into consideration 
your recommendations? Can you respond?
    Ms. D'Agostino. I think it is up to the executive branch to 
determine who is the right party to be in the lead. I think 
they would need all the agencies to agree to it and accede to 
it to make it work. You know, one candidate is TSA. But we did 
not recommend a specific organization.
    We suggested that the three departments discuss amongst 
themselves whether it makes sense to have somebody in charge or 
take the lead, as we finally adjusted our recommendation to 
say.
    Ms. Watson. I feel a sense of frustration because the last 
time we had an evacuation we found that there was a plane that 
some way, accidentally, got into the restricted zone.
    We as the policymakers hear nothing about followup. We have 
to depend on you coming in and reporting to us. So, I would 
hope that one of the recommendations that would come out of GAO 
is that whatever this group is, a study group, TSA or the 
executive branch, inform members so we, too, will know whether 
we need to put into the process legislation or should the 
executive branch just start to designate where they would like 
to see this occur.
    Some way, and this goes to the Chair as well, we need to be 
informed. It should not be a confidential meeting. I am not 
talking about sharing confidential information with us. But at 
least followup so we can be alerted and aware and propose 
corrective legislation.
    Thank you very much, Ms. D'Agostino.
    Chairman Tom Davis. Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. You know, when I look at 
the map for the Washington, DC, region particularly, you know, 
I'm struck by the fact that your restricted airspace versus 
your protection, it all looks very simplistic.
    But when we go over it and we actually look at the 
sectional, what we discover is that there are--to use a word I 
shouldn't use--a plethora of small airports, some of which were 
dramatically impacted by September 11th, aircraft stuck on the 
ground, unable to fly for a long period of time.
    From a practical matter, and I'll try to make this a 
question, a Cessna 150, 152, 172, these small light aircraft, 
for that matter, any aircraft under 12,000 pounds, single or 
twin, that operate out of those airports, basically, at the 
moment that they take off they are in a sense in your zone.
    Some of these historically didn't need radios. They all now 
have radio communication. They will be squawking 1,200 or 
something.
    From a practical standpoint, aren't we over-controlling to 
assume that there won't be a number of mistakes when somebody 
takes off and does left traffic versus right traffic or coming 
in to an approach isn't aligned, talking about a VFR pilot 
particularly, isn't aligned exactly where they should be on one 
of these many runways that are in this relatively small area.
    Ms. D'Agostino. I don't think that we actually could come 
to a conclusion that we are over-controlling or not. Again, I 
think we are very supportive of a risk management approach to 
controlling the airspace as we are with a lot of other programs 
that the Federal Government runs. But I don't think we are in a 
position to make that judgment about whether they are over-
controlling or not.
    Mr. Issa. Well, I will bring up something you mentioned 
earlier. I was not yet a Member of Congress when during the 
Clinton administration a small Cessna landed at the White 
House. What it struck had very little to do with the fact that 
it was attempting to do what it did, which was land at the 
White House.
    The response at the time was to close Pennsylvania Avenue. 
Now, I always wondered if that was to make it easier. But it 
apparently was not.
    We have had a long history here in Washington of having 
reactions that don't seem to line up with the problem. From a 
practical standpoint these small light aircraft do not 
represent a large enough risk to have the kinds of evacuations 
from here, the Capitol, that we have had.
    Would that be fair to say that a Cessna 172 cannot have a 
degree of impact? And we will assume that it doesn't have a 
thermonuclear weapon that it somehow snuck in. Because you can 
have that in a pickup truck. You can have that in a car. You 
wouldn't need an aircraft.
    The mass of the aircraft, its carrying capacity in any 
reasonable, conventional way simply can't do much damage to 
these buildings as Representative Norton said. Isn't that 
correct?
    Ms. D'Agostino. I would say that it depends on your 
perspective. No. 1, as you say, a very small aircraft can be 
loaded with some fairly dangerous material or horribly 
hazardous material and you don't know whether it does or it 
doesn't when you are an FAA controller and you are looking at a 
blip on the screen or when they file their flight plan and get 
authorization.
    The other problem is, about assuming a small aircraft is 
not a threat, is the Secret Service made it very clear to us in 
our exit conversations that a small aircraft targeting the 
President or the Vice President or the White House leadership 
is still a big threat from their perspective. So, I think we 
have to think about it from all the different angles and try to 
pull it apart.
    Mr. Issa. I appreciate that. I appreciate that the Secret 
Service will not let people go to the restroom when the 
President is in a room. They cannot walk away from the 
President under Secret Service control. So, I am very aware of 
their view and I appreciate it and I think protecting the 
President is extremely important.
    A final question for now: The way we deal with large 
aircrafts, the upgrading of communication of all fast movers, 
of all aircrafts, let us say, over 12,000 pounds, can we in 
fact have an initiative to upgrade the communication with those 
devices to prevent the Ernie Fletcher type of situation?
    I realize you may have some of this already thought out. 
Can we upgrade that so that we can bifurcate, if you will, 
outside of the White House, the normal threat of a small light 
aircraft, let us say, flying over a military base or something 
versus aircraft capable of inflicting huge damage on large 
targets?
    Mr. Lepore. Well, it is certainly possible to mandate 
something like that. I guess one of the challenges that you 
might all encounter and that you may hear is who would actually 
pay for that? Who would pay for the cost and how much it might 
cost to do that?
    In the study that we conducted for the committee we didn't 
actually look at that particular question. That was really 
outside the scope of the work. But I suspect one of the key 
issues would be the cost and who would pay for it.
    Mr. Issa. Thank you very much.
    Chairman Tom Davis. Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. I have read through some 
of the report. You do raise a series of issues that need to be 
resolved, developing a common concept, really, of even 
violations, and then sort of who is in charge.
    The DOD versus Homeland Security is a tough one. DOD, they 
have the real enforcement power. They will shoot the plane. 
Homeland Security really doesn't have that capability. The true 
enforcement is taking the plane out and getting up there and 
eyeballing what you have.
    We do have a problem with definitions of violations. That 
also becomes an FAA issue because it applies to all aircrafts. 
We are not just talking about restricted airspace in our 
Nation's Capital.
    That's another question. Do you favor a different standard 
for the Nation's Capital or maybe some designated potential 
targets, nuclear plants? I don't know if New York City is a 
whole target. How would you separate this out?
    Ms. D'Agostino. I think that the executive branch sort of 
separates them out already as a practical matter. The TSA has 
made clear that the National Capital region is unique space in 
all of U.S. airspace because of the Capitol and the White 
House.
    Mr. Mica. Again, for violations you want a separate 
standard.
    Ms. D'Agostino. Yes.
    Mr. Mica. They are coming to me right now. I have heard 
everything from, you know, a $1 million fine on down. We are 
going to have incursions. I think you and I both have cited--
fortunately I think we have had less in the closer area as 
people become more aware and we have more incidents.
    But I have to address the issue of fine and fairness. I 
raised the issue of intent and also purposely penetrating. Have 
you given any thought to levels of fines or penalties?
    Ms. D'Agostino. We did not look at enforcement actions at 
all in the scope of our work. We looked only at the interagency 
operation of dealing with violations.
    Mr. Mica. Do you think TSA or Homeland Security should have 
a say in the level of fine for a violation? Again, you have to 
have a definition of a violation. You have to have a penalty 
for the violation.
    You know, the guy that just flew across the edge there, 
what is that worth? Is FAA going to impose the fine? Is 
Homeland Security? What do you recommend?
    Ms. D'Agostino. I don't think it would hurt for the 
agencies to consult with each other and come up with a proposal 
that is acceptable to them. You do have to balance this. As I 
said in my concluding remarks, you need to balance the 
commercial interests and the freedom of flight, as Mr. Issa 
pointed out, with the valid and genuine security concerns since 
September 11th.
    Again, we aren't proposing to have the right answer on the 
right line level for the type of violation or the intent of 
that. It wasn't in the scope of our review. But it would make 
sense for people to consult with each other from their 
different perspectives and weigh the penalties.
    Mr. Mica. Did you also find the information I found 
correct, that there are very few fines imposed?
    Ms. D'Agostino. We didn't look at it. But we do know that 
the people who are actually monitoring the airspace and dealing 
with the deviations of restricted airspace are interested in 
knowing what happened to the pilot who were doing the 
violations?
    Mr. Mica. I also use Officer Thompson as an example. If you 
go out to First and C Street over by the Capital Hill Club, 
there is a guy by the name of Officer Thompson.
    Officer Thompson enforces the letter of the law. If you 
don't have both hands on your bicycle he will give you a 
ticket. If you jaywalk and it is not green, he will give you a 
ticket. Everyone looks twice before they cross that street 
because he is a tough enforcer.
    First, we don't know the definition of the violation and 
second we don't have a tough enforcement policy and we have 
different people, as you say, going in different directions. 
Hopefully, we can get it together a little bit better.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. We will excuse 
this panel. We will take a 2-minute break and move to the 
second panel.
    Ms. Watson. Before you do that, Mr. Chairman, may I just 
make a comment?
    Chairman Tom Davis. I will let the panel go, but you are 
welcome to make a comment.
    Ms. Watson. I think all of us are asking the same 
questions. I notice, Ms. D'Agostino, that you took notes. But 
this question goes to our committee. We are having kind of this 
oversight hearing and we really want to know.
    Would it be in order, Mr. Chairman, for this committee to 
put in legislation based on what we have heard today and their 
report so we can clarify definitions, get definitions and 
suggest that we do have, whoever responsible for following up 
on these recommendations, for enforcement and for some way for 
pilots to understand.
    One of the questions I would have asked is when you have 
violation of airspace simultaneously like what happened on 
September 11th, what do you do? Who is in charge? Is it DEN and 
are they effective?
    So, my question really goes to the chair. This panel 
doesn't have to respond. Mr. Chairman, what do you think?
    Chairman Tom Davis. Well, let us hear from the second 
panel. I think that's a good question to ask the second panel 
as well. We could certainly put that in.
    Thank you all very much. We will take a 2-minute break and 
then proceed with the next panel.
    [Recess.]
    Chairman Tom Davis. We will now move to our second panel. I 
want to thank them for taking the time to appear today. I 
welcome the Honorable Paul McHale, a former colleague of ours, 
who is now the Assistant Secretary of Defense for Homeland 
Defense at the Department of Defense.
    We have Major General Marvin Mayes who is the Commander of 
the 1st Air Force and Continental U.S. North American Aerospace 
from the Defense Command Region, Department of Defense. Then we 
have the Honorable Robert Sturgell, who is the Deputy 
Administrator from the Federal Aviation Administration.
    We are also going to hear from Dr. Kenneth Kasprisin who is 
the Acting Assistant Secretary for Homeland Security at the 
Department of Homeland Security.
    Because of the situation unfolding in London this morning, 
Mr. Kasprisin won't be able to attend, so I am going to ask 
that his statement be included in the record.
    [The prepared statement of Mr. Kasprisin follows:]

    [GRAPHIC] [TIFF OMITTED] T2809.012
    
    [GRAPHIC] [TIFF OMITTED] T2809.013
    
    [GRAPHIC] [TIFF OMITTED] T2809.014
    
    [GRAPHIC] [TIFF OMITTED] T2809.015
    
    [GRAPHIC] [TIFF OMITTED] T2809.016
    
    [GRAPHIC] [TIFF OMITTED] T2809.017
    
    [GRAPHIC] [TIFF OMITTED] T2809.018
    
    [GRAPHIC] [TIFF OMITTED] T2809.019
    
    Chairman Tom Davis. It is our policy that we swear 
witnesses before they testify.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you.
    Your entire statements are in the record and the questions 
are based on the entire statement.
    Paul, we will start with you. Welcome back.

 STATEMENTS OF PAUL MCHALE, ASSISTANT SECRETARY OF DEFENSE FOR 
 HOMELAND DEFENSE, DEPARTMENT OF DEFENSE; MAJOR GENERAL MARVIN 
 S. MAYES, COMMANDER, 1ST AIR FORCE AND CONTINENTAL U.S. NORTH 
   AMERICAN AEROSPACE DEFENSE COMMAND REGION, DEPARTMENT OF 
DEFENSE; AND ROBERT A. STURGELL, DEPUTY ADMINISTRATOR, FEDERAL 
                    AVIATION ADMINISTRATION

                    STATEMENT OF PAUL MCHALE

    Mr. McHale. Mr. Chairman, it is good to be back. I thank 
you and the distinguished members of the committee for the 
opportunity to appear once again in front of you.
    As you indicated, my formal statement has been submitted 
for the record, so in the interest of preserving the maximum 
amount of time for questions, I will present a brief summary 
with your consent at this point.
    Not too long ago we knew who our enemies were and where 
they lived. The terrorist attacks of September 11, 2001, the 
Madrid train bombing of March 2003 and most recently the tragic 
bombings in London have introduced us to the new enemies of the 
21st century. In the 21st century, facing a new threat in a 
more ambiguous and dangerous world, we are in a war with an 
asymmetric enemy without armies, navies or air forces.
    Today a complex network of ideologically driven extremists 
seek to terrorize our population, undermine our international 
partnerships and erode our global influence. The threat of 
catastrophic violence dictates a new strategic imperative we 
must actively confront, when possible, early and keep at a safe 
distance those who directly threaten us, employing all 
instruments of our national power.
    Using the total force concept, active, Reserve and Guard, 
the Department of Defense is postured to deter, defend against 
and defeat threats to the United States in the air, maritime 
and land domains. Focusing specifically on the subject of 
today's hearing, the Bi-National U.S.-Canada North American 
Aerospace Defense Command, NORAD, represented here today by 
Major General Mayes who is seated to my left, is responsible 
for protecting North America from air threats.
    Over the last 4 years we have achieved dramatic 
improvements in our understanding of that air threat. Our 
military command and control systems have been overhauled. 
Response assets are deployed for rapid and decisive threat 
interdiction and our collaboration and coordination with 
interagency partners have increased significantly.
    Prior to September 11th NORAD's surveillance efforts were 
directed outward from North America, primarily focusing on our 
country's borders in anticipation of a Soviet air threat.
    Today surveillance efforts include airspace over the 
interior portions of North America, recognizing that threats 
can now manifest themselves within our own borders.
    Carefully defined rules of engagement and a clear chain of 
command have been established to defeat terrorist air threats. 
The President has delegated to the Secretary of Defense the 
authority to take immediate effective action in response to a 
terrorist air threat.
    We have developed a classified conference capability with 
specific protocols for DOD decisionmaking in the event of a 
domestic air threat. These classified conferences are routinely 
monitored by U.S. Government air security organizations. We 
exercise our command and control systems to ensure that our 
senior civilian and military leaders are well trained and 
prepared to exercise their authority.
    Since September 11, 2001, under Operation Noble Eagle, the 
men and women of the U.S. Air Force, the Air Force Reserve and 
the Air National Guard have secured the skies over major 
metropolitan areas and our Nation's critical infrastructure on 
a daily basis. The rotating nature of this coverage, changed 
daily, denies terrorists the opportunity to pre-plan attacks 
based on routine schedules. We have conducted more than 41,000 
sorties and have scrambled fighters or diverted air patrols 
toward suspected air threats on more than 1,900 occasions.
    The Air National Guard provides more than 90 percent of the 
daily fighter alert and irregular air patrol requirements of 
Operation Noble Eagle. Under the control of three NORAD 
regional commands, we now have air defense alert fighters 
positioned throughout the United States and Canada that are 
capable of reaching major population centers and high value 
infrastructure within minutes. The Department of Defense cannot 
conduct the air defense mission without critical support from 
our interagency partners. Our support is fundamental to their 
success as well.
    In the last 4 years we have taken tremendous strides in 
this arena, reinforcing relationships with existing agencies, 
specifically and most especially, the Federal Aviation 
Administration, and forging ties with new ones, especially the 
Department of Homeland Security and the Transportation Security 
Administration. Key areas include shared situational awareness 
and exchange of liaison personnel at headquarters and operation 
centers and the development of operational responses that 
reflect a common understanding of air domain threats.
    The establishment of robust liaison relationships 
facilitate daily operations and have significantly improved our 
ability to address potential air threats. Full-time FAA liaison 
personnel are located at NORAD Headquarters at Cheyenne 
Mountain and at the operations complex in Colorado Springs.
    DOD and FAA liaisons are also stationed at the TSA-hosted 
National Capital Region Coordination Center. Operational 
responses now reflect a common understanding of the full range 
of threats in our domestic airspace.
    Mr. Chairman, my time has expired. Let me just briefly come 
to a conclusion. DOD conducts military missions in the air 
defense of the NCR as you heard during an earlier portion of 
this hearing. We conduct irregular air patrols. We have a 
dedicated 24/7 alert fighter response based at Andrews Air 
Force Base.
    We have a dedicated ground missile defense system. We have 
implemented a visual warning system to provide a laser warning 
to pilots who stray off course. DOD liaison officers serve at 
the NCRCC. As previously mentioned DOD has developed a 
classified conference capability with protocols for DOD's 
decisionmaking.
    Since September 11, 2001, the Department of Defense has 
implemented substantial improvements in the defense of the U.S. 
airspace. Our ability to detect, interdict and ultimately 
defeat air threats is good, but it can get better.
    With our interagency partners we continue to improve our 
air defense capabilities and in that context we welcome the 
GAO's thorough, credible and constructive report.
    I welcome your questions.
    [The prepared statement of Mr. McHale follows:]

    [GRAPHIC] [TIFF OMITTED] T2809.020
    
    [GRAPHIC] [TIFF OMITTED] T2809.021
    
    [GRAPHIC] [TIFF OMITTED] T2809.022
    
    [GRAPHIC] [TIFF OMITTED] T2809.023
    
    [GRAPHIC] [TIFF OMITTED] T2809.024
    
    [GRAPHIC] [TIFF OMITTED] T2809.025
    
    [GRAPHIC] [TIFF OMITTED] T2809.026
    
    [GRAPHIC] [TIFF OMITTED] T2809.027
    
    [GRAPHIC] [TIFF OMITTED] T2809.028
    
    [GRAPHIC] [TIFF OMITTED] T2809.029
    
    Chairman Tom Davis. Thank you very much.
    General Mayes.

           STATEMENT OF MAJOR GENERAL MARVIN S. MAYES

    General Mayes. Chairman Davis and other members of the 
committee, thank you very much for the opportunity to be here 
on behalf of Admiral Timothy J. Keating, commander of NORAD, 
NORTHCOM.
    It is an honor to appear before you and represent the 
exceptional men and women of that command. Our professionals 
are ready to act on a moment's notice to protect and defend our 
Nation's airspace.
    Since 1958, the United States and Canada have defended the 
skies over North America through NORAD. It is a bi-national 
command. Using data from satellites as well as airborne and 
ground-based radar, NORAD monitors, validates and warns of 
attack against the United States and Canadian homelands by our 
aircraft, missiles and space vehicles, as well as the emerging 
asymmetric threat.
    The plan ensures United States and Canadian air sovereignty 
through a network of alert fighters, tankers and airborne early 
warning aircraft and ground-based air defense assets cued by 
military and interagency surveillance radars such as those of 
the FAA and its Canadian equivalent, NAV CANADA.
    NORAD forces, as part of Operation Noble Eagle, maintain a 
steady state quick response posture to counter these potential 
threats to North America. We conduct irregular air patrols 
above major metropolitan areas, critical infrastructure 
facilities, in addition to maintaining an alert force of 
fighter, tanker and control aircraft.
    Our response posture is based on a tiered system and as 
threat levels intensify, the number of aircrafts and other 
resources we put on alert increase. Since September 11th we 
have flown over 41,000 fighter and support aircraft sorties and 
directed more than 1,900 fighter intercepts in response to 
potential threats.
    Because the U.S. National Capital Region is a symbolic 
target and contains many elements of our Nation's critical 
infrastructure it is protected around the clock by multi-
layered joint and interagency integrated air defense system. 
The surveillance, warning and air defense systems of the 
National Capital Region consists of Army Sentinel radars, the 
ground-based visual warning system as described by Secretary 
McHale, Department of Homeland Security helicopters, fixed wing 
aircraft on alert at Reagan National, Air Force fighters on 
alert at Andrews Air Force Base and the Army ground-based air 
defense system which includes medium range Norwegian Advanced 
Surface-to-Air Missile systems and short-range Stinger and 
Avenger missiles. These systems augment our fighter defenses by 
providing assets in place in a quick reaction posture to 
protect the seat of Government.
    The NCRCC, we believe, enhances interagency coordination by 
providing a venue for all the representatives of the many 
organizations, all the stakeholders, if you will, in defense of 
the National Capital Region to sit and watch together. Through 
the NCRCC, these various agencies have improved their 
individual situational awareness by knowing the actions of 
their defense partners. It is a coordination center, I would 
point out, and no command and control of forces occurs at the 
center. You know who the participants are.
    We have established a rapid conference call capability to 
facilitate information sharing among the White House, 
Department of Defense, FAA, Customs and Border Patrol, AMO, 
which is the Air Marine Operations Division of Customs and 
Patrol, and other law enforcement in the event of an airspace 
violator or a track of interest. These voice networks bring 
together different levels of decisionmakers from many 
organizations and increase the situational awareness for all.
    Secretary McHale addressed the rules of engagement. I will 
assure you that they are very precise and very directive and 
held at the highest level.
    Our partnership with the Federal Aviation Administration to 
improve our surveillance, command and control capabilities has 
made significant progress. We have full-time FAA representation 
in most of our command and control centers.
    Their Domestic Events Network [DEN], provides us real time 
situational awareness. It brings together our senior leadership 
into the decisionmaking cycle at a very early point in any 
crisis. We have incorporated over 300 new radios in the FAA 
centers and 39 radars that we did not have prior to September 
11th.
    On October 1, 2004, the Department of Defense and Homeland 
Security assumed shared financial responsibility from the FAA 
for our Nation's long-range radars under a 75-25 cost share 
formula.
    In fiscal year 2006 the radars will be funded under a 50-50 
cost share formula and we would like to urge Congress to fully 
fund the operations and maintenance of both departments to 
preserve our critical air surveillance network. Without it, we 
are operating blind.
    We continue to make air travel safer through increased 
airport and aircraft security measures. The action taken on the 
ground prevents us from having to expend resources in the air.
    We support national security events which take a great deal 
of our resources and have been numerous in number of late, 
including both political conventions, the inaugural, President 
Reagan's funeral, and the State of the Union address.
    In conclusion, since September 11th we have strengthened 
our ability to detect and assess and warn and defend of air 
threats against North America. We will continue to look for 
ways to refine that process and maximize our ability to detect 
airspace violators while we minimize the inconvenience to the 
aviation public.
    Thank you very much. I look forward to your questions.
    [The prepared statement of General Mayes follows:]

    [GRAPHIC] [TIFF OMITTED] T2809.030
    
    [GRAPHIC] [TIFF OMITTED] T2809.031
    
    [GRAPHIC] [TIFF OMITTED] T2809.032
    
    [GRAPHIC] [TIFF OMITTED] T2809.033
    
    [GRAPHIC] [TIFF OMITTED] T2809.034
    
    [GRAPHIC] [TIFF OMITTED] T2809.035
    
    Chairman Tom Davis. Thank you very much.
    Mr. Sturgell.

                  STATEMENT OF ROBERT STURGELL

    Mr. Sturgell. Good morning, Chairman Davis, members of the 
committee. I am pleased to represent the FAA before you this 
morning to discuss the many issues that arise from violations 
of restricted airspace and how the FAA is working to help 
pilots understand the complexities of flying in and around such 
airspace in order to reduce the number of pilot deviations, a 
few of which have resulted in the evacuation of this building.
    Working with my colleagues in the Department of Defense and 
the Department of Homeland Security, the FAA has a lead on 
implementing flight restrictions wherever and whenever it is 
necessary.
    Flight restrictions around the National Capital Region have 
been in place for several years, but other restrictions are put 
in place around the country as needed by the military or to 
provide additional security above high profile events. Pilots 
are required to check to determine if there are restrictions in 
place that they must comply with as part of their pre-flight 
planning.
    The area around Washington, DC, is highly regulated and 
pilots must follow a flight plan, be in contact with FAA and 
Air Traffic Control and continually squawk a discrete 
transponder code in order for FAA and the other participants of 
the NCRCC to know exactly who is in the airspace. Since 
virtually all of the pilot deviations that have occurred in 
this area have been inadvertent, the FAA is working with the 
users of the system to help heighten awareness of restrictions 
and what can happen if they are not complied with.
    Even though we have seen a declining trend in the number of 
violations over the past 2 years, we have increased our 
educational efforts with the general aviation community. Since 
June of last year, highly experienced air traffic control 
specialists have conducted 175 formal outreach programs. These 
include visits to flight schools, local flying clubs, local law 
enforcement aviation units and military base units.
    Our goal is to educate the pilots to use the system in this 
area and help them understand how to avoid getting into what 
could be a very difficult situation. These outreach efforts 
have been very well received and very well attended. I should 
mention that our colleagues represented here today are also 
part of that effort.
    We believe the trend is showing a decrease in the number of 
ADIZ violations is attributable in part to this effort. So, we 
want to do more. We think training is the key to further 
reducing violations.
    With extremely few exceptions, the pilots who have been 
properly flown into the restricted airspace around this city 
have not intended to do so. Some were lost. Some were avoiding 
weather. All of them would have preferred to avoid the 
sanctions, the publicity and the other consequences that can 
result from their mistakes.
    So FAA wants to go farther than our current outreach 
program. By using our existing authority, we want to require 
training that will begin with pilots who fly visual flight 
rules within 100 miles of Washington, DC.
    The FAA intends to issue a special Federal Aviation 
Regulation that gives the pilots in this area 30 days to have 
accomplished training on the requirements and procedures to 
operate in the flight restricted zone, the air defense 
identification zone and other restricted airspace. The training 
can be accomplished via an FAA safety seminar or through an 
online course such as those offered by the Aircraft Owners and 
Pilots Association [AOPA]. The pilot must successfully complete 
the course and conclude the test in order to be issued a 
certificate of completion.
    The FAA will then require that this certificate be carried 
by the pilot on any flight within 100 miles of Washington, DC. 
We think pilot awareness will be further improved by this 
requirement and over time we will expand that mandatory 
training on flying in and around restricted airspace to pilots 
throughout the Nation.
    Another part of our effort will include revisiting our 
sanction guidance on pilot deviations in the District's 
restricted airspace. Currently our general policy is to propose 
a certificate suspension for any pilot who penetrates the ADIZ. 
For a first-time offense, this is generally 30 to 90 days. Now, 
this can vary depending on the circumstances surrounding the 
violation as was the case for the pilot who caused the Capitol 
and the White House to be evacuated on May 11th. His 
certificate was revoked.
    The use of increased sanctions, especially for repeat 
violators and those who fly into the flight restricted zone may 
serve to keep this airspace safer and will send a clear message 
of the need to be aware and comply with the ADIZ rules.
    Chairman Mica mentioned some of the things that he is 
looking at earlier. We expect to be discussing this further 
with him through the summer.
    I think by and large pilots want to comply with the FAA 
regulations and restricted airspace procedures. We have worked 
closely with our community, especially in the D.C. area, to 
make our airspace safe, secure and efficient.
    I would like to commend aviation user groups like AOPA who 
are working hard to help educate their members. Last year, AOPA 
sent over 4 million e-mails to their members about airspace 
restrictions. This, in addition to cooperative education 
efforts with FAA and TSA and a continuing web-based campaign 
demonstrates the commitment of the general aviation community 
to proactively address our Nation's security concerns.
    I appreciate the congressional interest in how the FAA and 
the many other Government agencies coordinate their efforts in 
a time of heightened security. We are all striving to improve 
what we do and how we keep each other informed.
    I appreciate the consistent review, scrutiny, and 
reevaluation as appropriate. I welcome the opportunity to 
continue to work with the Congress, GAO, other Government 
agencies here and the users of the system to keep the airspace 
safe, secure and efficient.
    That concludes my statement. I would be happy to take 
questions.
    [The prepared statement of Mr. Sturgell follows:]

    [GRAPHIC] [TIFF OMITTED] T2809.036
    
    [GRAPHIC] [TIFF OMITTED] T2809.037
    
    [GRAPHIC] [TIFF OMITTED] T2809.038
    
    [GRAPHIC] [TIFF OMITTED] T2809.039
    
    [GRAPHIC] [TIFF OMITTED] T2809.040
    
    [GRAPHIC] [TIFF OMITTED] T2809.041
    
    [GRAPHIC] [TIFF OMITTED] T2809.042
    
    [GRAPHIC] [TIFF OMITTED] T2809.043
    
    [GRAPHIC] [TIFF OMITTED] T2809.044
    
    Chairman Tom Davis. Thank you. Let me just start. Secretary 
McHale, DOD's new strategy for homeland security and civilian 
support is critical of FAA radars. It states, ``the current 
radars maintained by the FAA to track air traffic within the 
U.S. are aging with high maintenance costs, poor reliability 
and reduced capability to track emerging threats.''
    Do you have any comments on that statement? Is it true?
    Mr. McHale. The Department of Defense continues to rely on 
the FAA radars because the radar picture that is derived from 
the deployment of those radar collection capabilities feeds 
directly into the command and control centers throughout NORAD.
    So, our eyes and ears throughout the airspace of the United 
States, our ability to perceive what is happening in the 
airspace, let me put it that way, is a direct result of the FAA 
quality radar system. That is an old system. For the most part 
it is a remnant of the cold war. There are issues with regard 
to the very substantial expenses that are associated with the 
upkeep of the FAA radars.
    FAA has taken the position that there are better ways for 
them to execute their civilian administrative deconfliction 
requirement within the airspace and they have argued that the 
FAA radars continue to have importance primarily for reasons of 
national security. Reflecting that analysis, as concerned by 
General Mayes, the Office of Management and Budget has now 
assigned the responsibility to the Department of Homeland 
Security and the Department of Defense to pay for the upkeep of 
those radars.
    Clearly at some point we are going to have to move beyond 
the FAA radars to maintain comprehensive surveillance in the 
airspace. In the interim, we seek appropriate funding both for 
DHS and DOD to maintain what are still the essential 
surveillance capabilities found uniquely within the FAA radars. 
We still need them.
    Chairman Tom Davis. Mr. Sturgell, can you comment on FAA's 
attempts to update its radars and tell us about the development 
of the Global Communications Navigation Surveillance System 
[GCNCSS], the list providing a common air surveillance picture 
at the National Capital Region's Coordination Center as a 
requirement?
    Mr. Sturgell. Chairman Davis, we have a number of different 
radar systems within the National Airspace System. There are 
terminal radars basically and long-range radars which provide 
surveillance capability.
    We have just recently approved a service life extension 
program for our ASR-9 radars which are largely in the terminal 
areas. We are acquiring newer digital ASR-11 radars as well. As 
the General mentioned, we have incorporated some of these radar 
capabilities into their networks as well.
    With respect to the long-range radars which largely border 
the Nation, they are an aging system. We identified that in the 
years before September 11th. We operate in the FAA a 
cooperative aviation system, if you will, depending primarily 
on the secondary returns from aircraft through the use of 
transponders.
    So, we recognized that we no longer had a need for primary 
skin paint returns, if you will, of the aircraft themselves 
which is largely used as a surveillance function.
    As the witnesses here have mentioned, that function we 
maintained until after September 11th. Now it has been 
transferred to the Departments of Homeland Security and Defense 
and they are working for funding again, I believe, for a 
service life extension of their capabilities.
    I think within the National Capital Region the radar 
coverage is extremely good. There are a number of other systems 
that enhance that capability as well.
    Chairman Tom Davis. Well, DOD's enhanced airspace security 
system, their EAS and your GCNSS seem to perform some of the 
same functions, namely air surveillance for the National 
Capital Region. Are these two systems compatible and do you 
need two departments with the same capability?
    Does anyone want to take a shot at that?
    Mr. Sturgell. I would say that it is my belief that they do 
provide different types of capabilities, some of which Defense 
is particularly interested in. I will let them speak to that.
    As far as our radars, again, you know, we recognize that 
D.C. is unique and there is a need for enhanced surveillance 
here. Our system in general largely is a cooperative system 
with the airlines through the use of the transponders.
    Chairman Tom Davis. I am just trying to get the 
compatibility and overlap. Secretary McHale, do you have any 
comment on that?
    Mr. McHale. I think General Mayes may have some comments on 
this point operationally, but the most fundamental distinction 
is this: the FAA uses radar to maintain awareness of what 
aircrafts are in the airspace and to administratively 
deconflict aircrafts that presumably are flying without any 
kind of terrorist intent.
    We use the same radar and some other radar systems for a 
different purpose and that is once we determine that an 
airplane may be under the control of someone with a malevolent 
intent, a terrorist, we use that radar not only to track the 
aircraft and maintain awareness of its constantly changing 
location, but we also use that radar to support some of our air 
interdiction capabilities.
    In a closed session we could talk about that in a little 
more detail. But we use radar not merely to deconflict the 
airspace, which is an FAA responsibility, but to track and if 
necessary shoot down an aircraft that has come under the 
control of terrorists.
    Thank you.
    Chairman Tom Davis. Ms. Watson.
    Ms. Watson. Thank you, Mr. Chairman. This question goes to 
General Mayes. The GAO noted a discrepancy in data collection 
of restricted airspace violations between the air defense 
sectors and NORAD Headquarters. Headquarters knew only 10 
percent of the violations monitored by the regional sectors.
    Can you respond to this? What caused the miscommunication 
and how has NORAD addressed this problem?
    Also, in its final report the 9/11 Commission recommended 
that the Department of Defense and its oversight committee 
should regularly assess the adequacy of the Northern Command 
strategies and planning to defend the United States against 
military threats to the homeland.
    So, in relation to air defense, General Mayes, how are 
NORAD and Northern Command complying with the 9/11 Commission 
recommendation?
    General Mayes. Thank you for your questions, Ms. Watson. As 
it pertains to the difference in clicker count, if I might use 
that term, of the number of events recorded at NORAD versus the 
Northeast Air Defense Sector, I will tell you that it has to do 
with upchannel reporting requirements.
    The Northeast Air Defense Sector will bump their clicker up 
on any given target of interest, regardless of tactical action 
requirements, whereas NORAD only requires upchannel reporting 
of those TOIs upon which we executed tactical action.
    I will give you an example. Let us say a target pops up in 
the National Capital Region and it is initially unknown, 
unidentified. It quickly is resolved. We find out who it is and 
no tactical action is required.
    The Northeast Air Defense Sector will record that as an 
event. NORAD, on the other hand, since there was no tactical 
action required, it does not require upchannel reporting. So, 
therefore NEDS would necessarily have many more events recorded 
than NORAD would.
    In regard to your second question, is that is an answer 
that you were looking for the first one, in regards to the 
second question about reviewing our strategy, I will tell you 
that our strategy is in constant review at many levels.
    My staff at Tyndall Air Force Base, as the Joint Force Air 
Component Commander, is specifically responsible for reviewing 
that air strategy daily and recommending changes to Admiral 
Keating, who is the commander of NORAD NORTHCOM.
    Our recommended changes that have been staffed by me 
initially are then staffed by his joint staff in Colorado 
Springs. Any disconnects there are agreed upon.
    I will also tell you that on an interagency basis we have 
an interagency airspace protection working group upon which 
representatives from all the stakeholders sit. We continually 
review our protection strategy specifically for the National 
Capital Region as well as the rest of the Nation.
    We review the measures that we are taking. We look at those 
measures in regards to how they affect the general aviation 
public. We take input from outside agencies like the AOPA and 
we evaluate modifications to our current defense strategy in 
terms of a risk analysis and where possible we will change 
those procedures to better accommodate the public.
    Ms. Watson. Mr. McHale, and I know you have to leave 
quickly, but as Assistant Secretary of Defense for Homeland 
Defense are you satisfied that the various different 
headquarters and defense sectors are talking to each other with 
the same language, are reporting so it is clear and there are 
definitions?
    I just heard General Mayes give us how NORAD looks at an 
incident and how another sector might look at an incident. I 
certainly would be confused. I think that is what the 9/11 
Commission was getting to when they talked about putting this 
under one head.
    How would you respond?
    Mr. McHale. The current system ensures, as was not the case 
before September 11, that we throughout the interagency, 
meaning the various departments of the Government, are now 
talking effectively to each other.
    But the ability to speak effectively to one another is only 
the first step toward achieving an effective air defense. 
Regrettably, before September 11 that communication as an 
element of a larger requirement was not met. The 9/11 
Commission recognized that, so one of the first things that we 
had to do was ensure that the various departments, to include 
our own, the Department of Defense, had the opportunity and the 
responsibility to communicate effectively daily, continuously 
to make sure that our activities were coordinated. We are doing 
that now.
    Without going into great detail, there are representatives 
of my staff who work full-time over at DHS. There are 
representatives from NORAD who work full-time at the TSA-led, 
hosted, NCRCC. So there is extensive communication.
    But there are gaps and seams remaining in terms of 
interagency coordination. When I was subject to confirmation in 
the Senate, I said that I would never use the word satisfied. I 
am not satisfied. There are improvements that can be made.
    I think the GAO has done a commendable job in pointing out 
where some of those improvements might be found.
    We had some disagreement, I think modest disagreement, but 
some disagreement with GAO in terms of how they originally 
phrased some of their recommendations. I will give you one 
specific example. The phrase was used ``in charge of'' and we 
pushed back on that because the military chain of command is 
clear under the Constitution and by statute. It goes from the 
President of the United States to the Secretary of Defense to a 
Combatant Commander. There is no other civilian in that chain 
of command.
    We don't want to turn the decisions of the Secretary of 
Defense into an interagency dialog. But we can, consistent with 
preserving the chain of command, insist upon a proactive 
leadership role in the interagency to make sure that as DOD 
exercises its military responsibilities, those responsibilities 
are fully coordinated with, not commanded by, but coordinated 
with interagency partners.
    I think there are still some unmet requirements with regard 
to that coordination. As noted in the GAO report, I think one 
of those areas involves leadership of the interagency process 
outside the NCR. That was one of the main conclusions reached 
in the GAO report and I think it is a valid conclusion 
demanding an answer.
    Ms. Watson. Well, I don't think the GAO needs to be looked 
at as someone that should be defining and clarifying the 
language in which we talk to each other through the 
interagency.
    They raised the issue. What I am trying to get from you is 
where is the responsibility for the interagency coordination? 
Where should it be housed? Are you saying the executive branch?
    Mr. McHale. Yes. The position that I would preliminarily 
present, and I think we are still in the process, not only in 
DOD but throughout the interagency in reviewing this issue, is 
who should have the role nationwide that has been assigned to 
the NCRCC, TSA's executive agency at the National Capital 
Region Coordination Center? Who should have that responsibility 
outside the National Capital Region throughout the rest of the 
country?
    Now, I believe, consistent with the GAO report, that TSA 
ought not to be passive in that executive agency, that there is 
a leadership responsibility associated with that executive 
agency; not a command responsibility, but a leadership 
responsibility, that is what we envisioned within the National 
Capital Region when we signed the memorandum of agreement.
    The question then becomes: Who has that duty nationwide? I 
believe that we ought to be open to the prospect of expanding 
that duty from the NCR throughout the Nation under the primary 
interagency leadership of TSA.
    Ms. Watson. I think you ought to do it.
    Chairman Tom Davis. Thank you. Mr. Shays.
    Mr. Shays. Thank you. Thank you, Mr. Chairman.
    Secretary McHale, you have been doing a great job. All of 
you have done a fine job. I happen to know this gentlemen and I 
appreciate the work he has done.
    I would like to ask you, how will the downsizing of the Air 
National Guard under BRAC and the reduction of the Air Guard 
assets affect DOD's ability to protect the homeland in the near 
and long term?
    General Mayes. Sir, the BRAC recommendations were reviewed 
before they came out on a public basis by Admiral Keating's 
joint staff in Colorado Springs, at headquarters of NORAD 
NORTHCOM.
    As a combatant commander, his interests are in combat 
capability, not in platforms or units. In reviewing those 
recommendations alongside the force providers, Admiral Keating 
has determined that the BRAC recommendations will not affect 
the ability of NORAD NORTHCOM to complete its mission.
    Mr. Shays. Would you also answer it, Mr. Secretary?
    Mr. McHale. One of the factors to be considered in the BRAC 
process is the potential impact of any individual closure upon 
homeland defense capabilities. So, it is not only something 
that one would think is the right thing to consider; by law we 
are obligated to consider homeland defense implications in 
making BRAC decisions.
    I can assure you from conversations that I had prior to the 
BRAC recommendations coming out of DOD, we had that kind of 
dialog. There was a review of the homeland defense implications 
associated with the proposed closures. Although that process 
continues, I can tell you with confidence that homeland defense 
was properly considered in coming up with the list that was 
recommended by the Secretary to the BRAC commission.
    Mr. Shays. Thank you. General, it is our understanding that 
the 1st Air Force operates 24 alert facilities across the 
United States. I would like you to describe these facilities.
    Let me give you all the questions, OK? Describe the 
facilities. What do they do? Does the alert facility have the 
right fighter jet assets to perform the air defense mission 
quickly and effectively?
    Two more questions: Which air asset is best suited to the 
domestic air defense mission and how many of those planes does 
the Air National Guard have?
    If you have forgotten one or two, I will come back to them, 
but if you could kind of group it together, that would be 
helpful.
    General Mayes. Sir, our alert facilities vary in number 
depending on our alert posture based on the given threat level. 
A lot of the aspects of your question, regrettably, are 
classified, so I can't get into the details of all of them.
    But I will tell you that typically at any given alert site 
there are at steady state, there are two aircrafts on alert 
with a spare. The facilities required to do that are generally 
an enclosed secured area, alert barn, as it is referred to. 
That is manned by the appropriate aircraft crew chiefs, weapons 
personnel, and of course the pilot force.
    The facilities require extensive CON activity to the 
command and control system so that those aircraft can be 
ordered into the air with the appropriate rapidity. Their role 
would be, obviously, to get airborne as rapidly as possible, 
close on a target of interest, execute diversion signals, first 
off.
    We have several ways of doing that. The international civil 
aviation organization has agreed upon a certain set of signals 
that will indicate to an aircraft that he must alter his course 
of action, perhaps follow the intercepting aircraft to landing.
    If the passenger signals do not work, then those aircrafts 
have flares on board to ensure that we can get the visual 
attention of a potential violator. Most of our alert airplanes 
are equipped with both UHF and VHF radios. We attempt at all 
times to hail those aircrafts, the potential violators, on the 
appropriate frequencies.
    With all of that failing, then our command and control 
system is such that we can access the highest available 
engagement authority and provide the situational awareness, a 
description of the current state of affairs to that engagement 
authority and then he can make the decision about the final 
course of action.
    Mr. Shays. Thank you, General. I am all set.
    Chairman Tom Davis. Thank you.
    Mr. Porter, do you have any questions?
    Mr. Porter. Yes. I know we just have a few moments left. 
But tell me what triggers your security interest in an 
aircraft. I know there are some specific things you look at, 
but what specifically would trigger your interest in an 
aircraft?
    General Mayes. Typically, what would cause an aircraft to 
be a target of interest would be the fact that it is--well, a 
couple of different things.
    First of all, on the unknown side it would be either not 
squawking the appropriate code, not flying on its filed flight 
plan, being in a restricted area where it was not supposed to 
be, non-compliant with instructions. If it was talking to us 
and then it didn't comply with instructions it would become a 
target of interest.
    Another way that an aircraft can become a target of 
interest is if we get through the intelligence fusion from the 
various agencies including both civilian and military, if we 
got information that there was a person on the no-fly list or 
the selectee list, and that comes out of the Terrorist Screen 
Center, if a person of that nature was on an aircraft, it would 
be determined to be a target of interest and would merit 
further scrutiny as it progressed through the national 
airspace, or it could be refused entry into the national 
airspace if it was coming from a different country.
    Mr. McHale. Mr. Porter, in addition to what the General 
just mentioned in terms of the physical activity of the 
aircraft, where it is flying, the altitude, the other 
indicators of potential threat activity in addition to the 
information that we receive routinely regarding passengers 
attempting to board or perhaps on board an aircraft may raise 
issues of concern.
    We also, consistent with the strategy that was quoted by 
the chairman a few moments ago, see air defense as defense in 
depth. That is, we want our air defense to begin overseas. So, 
we have established robust intel sharing relationships with 
friendly nation states and other sources overseas.
    Some of our most significant air defense activity has been 
triggered by information that we have received concerning 
specific flights at specific times and specific threat 
conditions associated with those flights so that we could bring 
to bear upon those flights a very focused sense of concern.
    You may recall a year ago this past Christmas, over a 
period of 2 or 3 weeks we had that kind of information and it 
dramatically affected how we deployed and implemented our air 
defense capabilities, reviewing and in fact intercepting 
certain flights, well beyond the airspace of the United States 
of America.
    General Mayes. Sir, I might add just one more factor. I 
will tell you that the FAA, our partners in the FAA, are quite 
often the first ones to bring to our attention the fact that an 
aircraft is not compliant with his plan or is squawking the 
wrong code. So the partnership there is working well.
    Chairman Tom Davis. Well, thank you all very much. We have 
votes on so I will dismiss this panel. We will move ahead and 
adjourn this hearing but I appreciate everybody being here 
today to answer our questions. We will keep working together.
    The hearing is adjourned.
    [Whereupon, at 11:52 a.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
